Appendix

A
Hurtado v. people oP California

a8 LED asa, no U.s. 516,5-34-38 0884)
(no u.s 5'<a
I.) The words "due process of law" in the IVA Amendmeat, do net necessarily
require an indictment by a grand Jury in a prosecution by a S+ate for murdef.
5.)The Constitution of California authorizes prosecutions for felonies by information,

offer examination and commitment by a magistrate, without indicimw-t by a grand jury,

in tKe disced ion of fAs. I e/p slat ore. The penal code of the- State makes provision for aa
examination by a magistrate , in -Vh^ presence of t-hst accused, who is entitled-to ffa
aid of counsel and the right of cross- examination of witnesses, whose Testimony

Is to be reduced To to citing, and upon a certif i cafe thereon by the magistrate,
that a described offense has been committed and that there Is Soff latent cause to
be I lev/e the accused guilty thereof, and an order holding him to answer thereto,

regains an information do be-Aided against+he accused in the superior court of tfu.
countg in which the offence is triable, In Tha form of an Indictment for the samst
offense.
(no U.S 534)
Mr. JusTica Miller says however " it- (5 not possible to hold That a party has, without
due process of law, been deprived of his property , when , as regards the issues
affecting it, he has by Th$_ laws of the State a fair trial iq a court of Justice,

A1

according to the modes of proceeding applicable. to such 0. casel'
lL/e art do construe the phrase in + he It'* Amendment by the usus loqotndi of the
Const i-ful'i on itself. Thj_ same words are contai ned in "Hu. S’* A rot no! ment. That article
makes specific, and cypress provision for perpetual my the insfifotion of the grand Jury,
so faros i{ relates to prosecutions, -for the more aggravated crimes under the laws of
Ike UnfM Stales. X+ declares that u no person shall be. held .. ■ - if than adds nor be
deprived of life, liberty, and property without doe process of lawT According 4o the
rccogniz.ed canon interpretation , especially .applicable fo formal and solemn
instruments of constitutional law, we are forbidden to assume, without clear reason
to the. contrarythat any part of this most important (amendment is Superfluous.
The natural and obvious inference is, that in the sense, of the. Constitution ^ dot
process of law " was net miaM: or intended to Include ^ ex vt ’ termini, the institution
and procedure of a grand jury in any case,.
Clio U.S. 535)

The Conclusion is equally irres (stable that when the same, phrase was.employed
in the. 14* Amend rn&nt -Vo restrain the action of the Stales, it to as used in4he
same sense and with no greater orient t and that if in the, adoption of Ihat
Aiviajndrvunl it has bun part of its purpose to perpetuate the, insfiful/on of {Kl
;grand jorij in all the states, if would haue embodied,as if did Uul 5^

A3t

Amendment* express declarations fo that effect. Due. proass of law in the latter refers
-fo that law of the \a.nd^ which derive ("fs authorltg from legislative powers conferred
upon Congress by the Constitution cf 41a United States, exercised within the limits
therein prescribed , and interpreted according fc> 4he principles of 41a common Iaw>
In tha 14*' Ameadmenf, bg par i+g of reason, if ■ refers t& that (cao of the, land in
each StaK* which derives if5. Outhoritg from flu inherent and reserved powers of
■fta state, exerted within the (imifs of thos*2-- hundanuAfaJ principles of llbcrtgand
justice which lie oh tta. base of OJt our civil and polifical inslifotions , and the greatest
■s

secuhH) for which resides in the right of the people 4o mafce their own laws , and alter them
at their pleasure. tt "the, 14+k Amendment, " as was said by Mr. Justice 'Brodleg in Mo
v. Lewis (supra),

does not profess 4o secure all persons intVu, United Sfaks the,

benefit of the same laws and the same remedies . (treat diversities in these respects
mag exist in two States separated onlg bg an tmaglnarg line. On one side of this
line, there, might be a right bg trial bg jurg , and on the other side no Such right,
bach Stole, prescribes its own modes of judicial proceedings,x/
but 4 is Cict to be supposed that Vras«- legislative power? are absolute and depth,
and that the kwendrAint prescribing due process of law is too vogue and inddeinite
to operate as a. practical restraint. 1+ is not everg /\d , Iq/siaLVe inform, that

A3

is law. how is something more, -than me,re. will everted as an ad gC power, xt
must not be a special ru(e for a. particular person or a particular cast,
(no U.S 53fc0

and the limitations imposed kg our Constitutional iwo upon the action of the
aovern meats , bo4h state and national, are essential to the preservation of
public and private rights 7 notwithstanding the representative character of

Out

political institutions. The. enforcement of these limitations by judicial process is the
device of setC-governing cammunitie' to protect the rights of individuals and minorities,
as tueU against the powerof numbers, Gs against the violence of public agente
transcending the limits of lawful authority even when acting m the name and welding
the Wee of the government." Due proass ch low'' say£ " the principle does not dement
thod the lows existing at an^ point of) time shall be irrepealable,, or that any forms of
remedies Shoal neessaniy continue. £4 refers Vo certain fundamental rights which
that system oC jurisprudence, of which ours is adertVotiW, has a/ wage recognized.
Tf any of these are%disregarded in the proceedings by which a. person h condemned
to the losg of life, liberty , or property , thin the deprivation has not been 6y doe
process of law, u Xt must be conceded that thire are soch rights m cverg fret
government beyond the Control of the Slate." (Mr. X Mil(er)
(lio O.s. 538)

Tried by these principles, we are unahe to

A4

sguj

that the substitution tor a.

presentment or indictment by a yrand jury of -fhJL praaud iny by in4ormation ^ after
examInatron and comm iff rurtt buj a mayis4ra.4e, certify inq flu. probable. yoilf of
4-lu defendant, w-ifh flu riqht on his part fo flu aid of coonscl ^ and to fhs_
cross - examination of -flu Loifrusse-s prodoad for -flu prosecution, ts not due.
process of law. If is

as

uj<-

haue. soen, an ancient procudiay af common law,

0)hich miyht jnclodbi cumy case, of an offense, of les5 yradefhan w felony, exra.ptmisprison of treason ’ and- in every circumsfana of ifs administration , os cuAhorized
by -fhjL.statute of California, if carefully cansidus and guards -Hu substantial interest
of flu prisons/, if is minUy a preliminary procudinq cmd can result in no ■final
jodcjtnwif, eecipf as flu consequence of a reyo lor judicial fn'al 7 oondueled precisely
as in cas-es of indictments.
JCn reference. fo this mode of proaadiny af flu common. laU 5 and which says l' is as
ancient as fhi common law ifselC " Slacfsfou adds u and fo those offenses in oohich.
informations were allowed as well as indictments, so lony as flay were confined fo
this h/^h and respectable jurisdiction, and were. corn id on in a (cyal and regular
course in his Majestys Court of 4tu Kinqs Sench«, -flu subject had no reason fo
cornpla/n. The same notice uuas yixn, fine same process was issued , the same.
-*i

pleas were. allowed? t-W same. 4rial byyur y was had , flu Sana, jodye/unt war

A5

cyvtn bj

5 cs K pros<Lcoiion ou&s by incli'c.-VfY\juf\+.

True Copy, Tes-V
JarAiS M HeTeoryey , C,\ cr[c , Su^runju Osuri; of 4fie Unlf^ct SfaK^

A6

1
°[/£l/p.0

SETTi JOTM \n11LCQX - P£TmoM£R
vs.
STATE OF VJASK(|\J6TOM~ ResPomdAMT

(*lerk of The, (foo(T
Tn rdforoKi 4o Ihe- Cose rk-Vfo above,T , Sd-h Tohn l/Mcox;, Thr
peTTionrr..ha\jg. amended r^u peAVUon, and am Rling-fe R4i£on
for aa_.ExTraoxdino,aj ,\4r4 of Mandamus and /or PmMbT/on,
changing Washington Tfofo PoosT-t-iAtonal Uaujs ci-fort in-mi)
peTifioa. T haup. amgnckd 4hi cover page, index- of appendt'clE
and Inc(uded Appendices rdri/and 4o mg pd-i-fion. Jn accordance
-?■

-fn Supreme Cour-f rules rQO.TCal ond, 14.1 (i)(vi), d havle______

included a riexlnra-Hon in Appendix R, .MaTinpT-hQ. nadonp. o-f____
4Sr_^TTi^Q_,jrAL(rL5o^M_,_mrpJioQ4l_cjrc.ov]QTiaQrrs_1_as^uri(__ _
(is .reasons ..cvh^ Ah is uun4 cannol be fed in anp ofher enufe___
OS U)03

(Jni-fe/j Sfecs Saprme CourT. £ da\j<l included a IHcTTn___
jorleavr-fo. procmd in.forma pauper j including dec/arafen .suppor-f/ng
4Viq rnofion } fTTTon for an feraordinarg Wrrf cT Mandamus and (o r
.Erobi.bi£ioQ-)-aQ.d.PcQcLj3^LTi£V(jx_^..l.ppiiidir_A-aQd_B_a£r^f^Tr
EEC jfyfeflf jhtfl- documiLoT. Copies "have. bern properly sm/ed -fo 4fu
S£R_;>^j^ruL|j fefe and tywe/nor of rjasTapfo S-fak bg OS. Maif
2es^ci£ol(y_)___________ _

SeTh Mnhn VJifev______

